TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Taxpayer Information Is at Risk
                          When Copies of Tax Returns
                          and Transcripts Are Ordered



                                     September 22, 2009

                           Reference Number: 2009-40-140




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 22, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Taxpayer Information Is at Risk When Copies of
                               Tax Returns and Transcripts Are Ordered (Audit # 200940009)

 This report presents the results of our review to determine if measures could be taken to
 strengthen the controls over requested tax returns and transcripts. The overall objective of this
 review was to determine whether controls over requests for copies of tax returns and transcripts
 are sufficient to reduce the risk of identity theft and/or unauthorized disclosure of taxpayer
 information. This audit was conducted as part of the Treasury Inspector General for Tax
 Administration Fiscal Year 2009 Annual Audit Plan and addresses the major management
 challenges of Providing Quality Taxpayer Service Operations and Taxpayer Protection and
 Rights.

 Impact on the Taxpayer
 In February 2009, the Federal Trade Commission reported that for the ninth year in a row
 identity theft was the number one consumer complaint nationwide. 1 Identity theft occurs when
 someone uses Personally Identifiable Information, such as an individual’s name, Social Security
 Number, credit card numbers, or other account information, to commit fraud and other crimes.
 Taxpayers need to be assured that the Internal Revenue Service (IRS) is taking every precaution
 to protect their private information from inadvertent disclosure. This includes, but is not limited
 to, processing taxpayer Requests for Copy of a Tax Return (Form 4506) or Requests for Copy of
 a Tax Return Transcript (Form 4506-T). 2 Taxpayers who submit requests for copies of tax
 returns or transcripts are at risk of unauthorized disclosures of taxpayer information.



 1
     Consumer Sentinel Network Data Book for January–December 2008, Federal Trade Commission, February 2009.
 2
     Transcripts provide most of the information contained in a tax return.
                            Taxpayer Information Is at Risk When Copies of Tax
                                  Returns and Transcripts Are Ordered



    •    Employees were inappropriately processing requests even though the address provided on
         the Form 4506 or 4506-T was not the address of record.
    •    Although required, one RAIVS unit did not use the Transcript Delivery System
         automated process to mail transcripts. If this unit used the automated process to mail
         transcripts, the projected 2-year (Fiscal Years 2010 and 2011) productivity gain would
         equal 4.6 Full-Time Equivalents 3 or approximately $382,290 for the combined 5-year
         period by eliminating employees manually stuffing envelopes and mailing transcripts.
Additionally, RAIVS unit employees are not required to research taxpayer accounts for identity
theft indicators before processing requests, and not all Forms 4506 and 4506-T were properly
maintained.
The IRS currently charges $57 for copies of tax returns, whether they are submitted on paper or
electronically filed (e-filed). IRS officials stated that the difference in costs between providing a
taxpayer a printout of an e-filed tax return and a copy of one submitted on paper is $0.88. We
were not able to validate the IRS’ calculation of this user fee during this audit; however, we
believe the cost associated with processing requests for printouts of e-filed tax returns may be
significantly lower than the cost to process copies of tax returns submitted on paper. We
estimate that taxpayer burden could be reduced for 83,910 taxpayers for a 5-year period by
eliminating or reducing the $57 fee for a printout of an e-filed tax return.
For Calendar Years 2006 through 2008, the RAIVS units processed approximately 17.8 million
requests for printouts of transcripts, compared to
approximately 1.4 million requested by taxpayers
                                                             Increased use of the ICCE would
using the IRS’ toll-free telephone automated system—               reduce the volume of
the Integrated Customer Communications                            Forms 4506-T manually
Environment (ICCE). The ICCE is an automated                   processed in the RAIVS units
self-help system that allows taxpayers to use the
telephone key pad to order transcripts. Increased use
of the ICCE would reduce the volume of Forms 4506-T manually processed in the RAIVS units.
If just 20 percent of the taxpayers who order transcripts using Form 4506-T were to switch to
ordering them using the ICCE, the projected labor cost savings the IRS could realize over a
5-year period totals approximately $31 million. Taxpayers would also obtain their transcripts
faster and with less effort.




3
 A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,080 staff
hours. For Fiscal Year 2008, 1 Full-Time Equivalent was equal to 2,088 staff hours due to leap year.
                                                                                                                     3
                       Taxpayer Information Is at Risk When Copies of Tax
                             Returns and Transcripts Are Ordered




Recommendations
The Commissioner, Wage and Investment Division, should clarify guidelines to ensure an
accurate name and Social Security Number be required before Forms 4506 and 4506-T can be
processed. Internal controls should be developed and training provided to ensure that RAIVS
units: 1) use the Transcript Delivery System’s automated process to mail transcripts, 2) send
copies of tax returns and transcripts only when the Form 4506 and 4506-T shows the address of
record, and 3) properly maintain requests for copies of tax returns and transcripts.
The Commissioner should also develop guidelines on how to process requests for taxpayers who
are victims of identity theft, reduce or eliminate the user fee for e-filed tax returns, and ensure
IRS.gov and Form 4506-T are updated to prominently display the option and benefits of ordering
a transcript using the ICCE.

Response
IRS management agreed with four recommendations and disagreed with one recommendation.
Management will review and clarify guidelines on proper research requirements to ensure the
accuracy of the taxpayers’ names and Social Security Numbers. The IRS will make site visits to
ensure all RAIVS units are adhering to established guidelines and maintaining required
documentation. It will also develop Identify Theft procedures in the RAIVS unit and will more
prominently display on IRS.gov the option and benefits of ordering a transcript through the IRS
Toll Free telephone number using the automated self-assistance application. Additionally,
Form 4506-T will also be similarly updated during the next scheduled revision. While the IRS
agreed to prominently display the option and benefits of ordering a transcript using the ICCE, it
did not agree to the outcome measure associated with this recommendation. IRS management
stated they were unaware of the basis for our estimate of 20 percent of Form 4506-T users likely
to use the ICCE. In addition, the availability of another channel to request transcripts will not
necessarily result in a change in taxpayer behavior to such an extent.
Management disagreed with the recommendation to reduce or eliminate the user fee for e-filed
tax returns and the associated outcome measure. However, they will perform a separate analysis
for both paper and e-filed tax returns to validate current assumptions. Management’s complete
response to the draft report is included as Appendix V.

Office of Audit Comment
In relation to our outcome measure regarding using the ICCE, the IRS did not offer a better
estimate for the 20 percent we estimated. Further, IRS studies suggest a significant opportunity
to enhance stakeholder value by migrating willing taxpayers to the more convenient,
cost-effective electronic channel. In recent years, the volume of self-assisted taxpayer contacts
                                                                                                    4
                        Taxpayer Information Is at Risk When Copies of Tax
                              Returns and Transcripts Are Ordered



has increased, while assisted contacts have decreased. Research also suggests that many
taxpayers would be willing and able to obtain certain services they need from the Internet or
automated telephone channels. Most taxpayers prefer contacts with the IRS be by telephone.
In relation to the user fee for e-filed tax returns, we believe that the cost to process requests for a
printout of an e-filed tax return is significantly lower than the cost to process copies of tax
returns submitted on paper. The cost of providing printouts of e-filed tax returns is comparable
to providing printouts of transcripts, which are free.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Michael E.
McKenney, Assistant Inspector General for Audit (Returns Processing and Account Services), at
(202) 622-5916.




                                                                                                      5
                               Taxpayer Information Is at Risk When Copies of Tax
                                     Returns and Transcripts Are Ordered




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Controls Over Requests for Copies of Tax Returns and Transcripts
          Need Strengthening to Prevent Unauthorized Disclosures
          of Taxpayer Information ...............................................................................Page 4
                    Recommendations 1 through 3:.........................................Page 12

          Charges for Copies of Tax Returns Filed Electronically
          Should Be Reduced or Eliminated................................................................Page 13
                    Recommendation 4:........................................................Page 14

          Increased Taxpayer Awareness of the Automated System to
          Order Transcripts Would Reduce Taxpayer Burden and
          Internal Revenue Service Costs ....................................................................Page 14
                    Recommendation 5:........................................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Outcome Measures...............................................................Page 22
          Appendix V – Management’s Response to the Draft Report .......................Page 26
                      Taxpayer Information Is at Risk When Copies of Tax
                            Returns and Transcripts Are Ordered




                                 Abbreviations

e-file(d), e-filing       Electronically filed; electronic filing
ICCE                      Integrated Customer Communications Environment
IDRS                      Integrated Data Retrieval System
IRS                       Internal Revenue Service
IVES                      Income Verification Express Service
RAIVS                     Return and Income Verification Services
                            Taxpayer Information Is at Risk When Copies of Tax
                                  Returns and Transcripts Are Ordered




                                           Background

In February 2009, the Federal Trade Commission reported that for the ninth year in a row
identity theft was the number one consumer complaint nationwide. 1 Identity theft occurs when
                                              someone uses Personally Identifiable Information,
  Personally Identifiable Information         such as an individual’s name, Social Security
  includes an individual’s:
                                              Number, credit card numbers, or other account
  • Name.
  • Address.
                                              information, to commit fraud and other crimes.
  • E-mail Address.                           The Internal Revenue Service (IRS) Office of
  • Social Security Number.                   Privacy, Information Protection, and Data
  • Telephone Number.                         Security defines Personally Identifiable
  • Bank Account Number.                      Information as any combination of information
  • Date and Place of Birth.                  that can be used to uniquely identify, contact, or
  • Mother’s Maiden Name.                     locate a person and could subsequently be used
  • Biometric Data (i.e., height, weight, eye
      color, finger prints, etc.).
                                              for identity theft.
                                                  More than 130 million taxpayers entrust the IRS
with sensitive financial and personal data, much of it on paper documents requiring protection.
Internal Revenue Code Section 6103 states that tax returns and return information shall be
confidential, except as authorized. The definition of tax return information includes a taxpayer’s
identity and the nature, source, or amount of income, payments, receipts, deductions,
exemptions, credits, assets, liabilities, net worth, tax liability, and tax withheld.
Taxpayers need to be assured that the IRS is taking every precaution to protect their private
information from inadvertent disclosure. This includes, for example, processing taxpayer
requests for copies of tax returns or tax return transcripts. 2 Taxpayers request copies of their tax
returns or transcripts for many reasons—to verify income for child support or to obtain a loan to
start a business, buy a home, or attend college. A third party, for example a financial institution,
insurance company, or university, could also submit a request on behalf of a taxpayer to the IRS.
      •   Copies of tax returns currently cost taxpayers $57. Taxpayers request copies of tax
          returns using the Request for Copy of a Tax Return (Form 4506) by mail or by visiting
          one of the 401 local IRS offices, called Taxpayer Assistance Centers. It generally takes
          60 days to process copies of tax returns, less if the tax return is electronically filed
          (e-filed).



1
    Consumer Sentinel Network Data Book for January–December 2008, Federal Trade Commission, February 2009.
2
    Transcripts provide most of the information contained in a tax return.
                                                                                                     Page 1
                           Taxpayer Information Is at Risk When Copies of Tax
                                 Returns and Transcripts Are Ordered



    •   Printouts of transcripts are provided free of charge. Taxpayers can submit requests for
        transcripts by calling the IRS toll-free telephone number (800) 829-1040 to speak with a
        Customer Service Representative or using prompts to reach the automated system,
        visiting Taxpayer Assistance Centers, or mailing/faxing a Request for Copy of a Tax
        Return Transcript (Form 4506-T) to the IRS. It generally takes 10 days to process
        printouts of transcripts, fewer if the taxpayer calls the toll-free number using the
        automated system.
Whether the request comes from the taxpayer or a third party, it must be signed and dated by the
taxpayer who filed the tax return or someone who has the authority to sign under Internal
Revenue Code Section 6103(e). The IRS Return and Income Verification Services (RAIVS) 3
units in the IRS Submission Processing Centers are responsible for processing all written
taxpayer requests for copies of tax returns or tax return transcripts.
The IRS uses three methods to process taxpayers’ requests for copies of tax returns and tax
return transcripts.
•   Integrated Data Retrieval System (IDRS). The IDRS is used to process taxpayer requests
    for copies of tax returns. IRS employees access taxpayers’ accounts on the IRS Master File 4
    and complete several steps to process the request. This system can also be used to process
    transcript requests when the Transcript Delivery System is
    not available for use.
•   Transcript Delivery System. This system automates the
    validation, processing, and delivery of taxpayer
    information to taxpayers or authorized third parties. The
    Transcript Delivery System can be accessed by employees
    and includes self-service electronic communication,
    whereby the user can request and receive a transcript
    interactively through the e-services 5 portal.
•   Income Verification Express Service (IVES). The IVES automates bulk requests made by
    third parties. Employees use the IVES to process bulk requests for transcripts received from


3
  At the beginning of Fiscal Year 2009, five RAIVS units that process requests for individual taxpayers who file a
U.S. Individual Income Tax Return (Form 1040) were located in the Andover, Atlanta, Austin, Fresno, and
Kansas City Submission Processing Centers. In Fiscal Year 2009, the IRS plans to transfer all RAIVS unit work in
the Andover RAIVS unit to other RAIVS unit(s). We did not conduct testing at two other RAIVS units, in the
Ogden and Cincinnati Submission Processing Centers, because they process only transcripts of business,
partnership, estate, and trust returns.
4
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
5
  E-Services are a suite of web-based products that allows employees, tax professionals, and payers to conduct
business with the IRS electronically. These services are available 24 hours a day, 7 days a week, via the Internet.
                                                                                                             Page 2
                          Taxpayer Information Is at Risk When Copies of Tax
                                Returns and Transcripts Are Ordered



   businesses that routinely submit a high volume of requests as part of their business operations
   (e.g., a large mortgage company). The transcripts are generally delivered electronically
   within 2 business days. Customers log on to the IRS public Internet site, IRS.gov, to retrieve
   their transcripts from a secure mailbox. The IRS charges $4.50 for each transcript and bills
   the business monthly.
Historically, taxpayers request copies of their tax returns less often than they request transcripts.
Figure 1 shows the volume of requests for copies of tax returns and transcripts for Fiscal
Years 2006–2008.
             Figure 1: Volume of Requests for Copies of Tax Returns and
                        Transcripts for Fiscal Years 2006–2008

                               Number of Forms 4506            Number of Forms 4506-T
            Fiscal Year
                             Processed by RAIVS Units         Processed by RAIVS Units

               2006                     361,603                         6,864,101
               2007                     340,490                         4,906,031
               2008                     282,075                         6,032,436
              Totals                    984,168                        17,802,568
          Source: IRS Customer Account Services function.

This review was performed at five IRS Submission Processing Centers that process transcripts
for individual taxpayers and included site visits to Andover, Massachusetts; Atlanta, Georgia;
and Fresno, California, during the period February through July 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                               Page 3
                             Taxpayer Information Is at Risk When Copies of Tax
                                   Returns and Transcripts Are Ordered



many lenders or closing agents often ask borrowers to sign a blank Form 4506-T at closing,
without filling in the name of the party to whom the information will be disclosed or without
dating the consent. This practice enables the lender to sell the loan in the secondary market,
where a prospective buyer may verify the income of the mortgagee well outside the 60 days
prescribed by the IRS. Of even greater concern is the potential to give unknown persons or
entities access to confidential tax information that they could sell or misuse.
The National Taxpayer Advocate recommended that the IRS revise Form 4506, Form 4506-T,
Tax Information Authorization (Form 8821), and their respective instructions to:
•     State in clear and plain language that taxpayers should not sign a blank or incomplete form.
•     Allow a taxpayer to specify the purpose for which the information he or she is consenting to
      disclose can be used by third parties.
•     Advise taxpayers of their privacy rights and the importance of not signing blank forms.
The IRS agreed and added cautionary language to Forms 4506, 4506-T, and 8821, but had a
different opinion on the sufficiency of existing cautionary language on Forms 4506 and 4506-T.
The IRS did not agree to revise the Forms to allow taxpayers to specify the use of information.
Analyses of taxpayer accounts for January 2007 through March 2009 identified 5,106 requests
for the same tax return information were submitted and processed by different RAIVS units for
2,044 taxpayers. For 2,011 (39 percent) of these requests, the time period exceeded 60 days.

Inconsistent and unclear guidelines increase the risk of unauthorized disclosures
Employees were not always following guidelines when processing the Forms 4506 and 4506-T,
partly because the guidelines are not always clear on what is required for authenticating the
taxpayer versus ensuring the Forms are complete. In fact, in various instances, employees were
requiring more authentication than required by the guidelines.
Guidelines allow employees to process requests without a Social Security Number, but
employees did not follow the guidelines and rejected all auditor requests that did not include a
Social Security Number.
Internal Revenue Code Section 6103(b)(6) defines the term “taxpayer identity” as the name of a
person with respect to whom a return is filed, his or her mailing address, his or her taxpayer
identifying number, or a combination thereof. Treasury Regulations state that at the time the
Form 4506 or 4506-T is signed and dated by the taxpayer, the written document must indicate
the individual’s taxpayer identity information described in Section 6103(b)(6). 8




8
    Treasury Regulation 301.6103(c)-1.
                                                                                                Page 6
                              Taxpayer Information Is at Risk When Copies of Tax
                                    Returns and Transcripts Are Ordered



Figure 3 shows that only three items of Personally Identifiable Information are required on the
Forms 4506 and 4506-T: 9 (1) Social Security Number, (2) name, and (3) address (current or
prior address of record).
                                    Figure 3: Excerpt of Form 4506-T




          Source: Form 4506-T.

Of the three items of Personally Identifiable Information required on the Forms 4506 and 4506-T
                                                      (the name, address, and Social Security
  The request must contain the following items:
                                                      Number of the taxpayer), IRS guidelines
  1. Sufficient information to identify the taxpayer.
      At least two of the following three items must
                                                      require that only two of the three items be
      be present.                                     correct to ensure the request is complete and
      a) Correct taxpayer name.                       ensure the recipient is authorized to receive
      b) Correct Taxpayer Identification Number
                                                      taxpayer tax return information.
              (the Social Security Number).                    If the Social Security Number on a request is
          c) Correct taxpayer address (either current          not correct, but all other taxpayer identifying
              or prior address is the address of
              record).
                                                               information matches the IDRS, employees
                                                               are to research the IDRS for the correct
     2.   Separate requests must be submitted for
          each third party.                                    information. If the error is a simple
     3.   Applicable tax form numbers (business forms          transposition of two digits, or one digit is
          only).                                               missing, employees may correct the Social
     4.   Tax year(s) or period(s) requested.                  Security Number and continue processing.
     5.   Signature of taxpayer or authorized person.          Employees are not to reject a request based
     6.   Signature date must be present and be                on an incorrect Social Security Number if
          within 60 calendar days of the IRS received          these conditions are met. If the Social
          date.                                                Security Number error is larger than just
     7.   Correct payment, if applicable.                      described, the employee should reject the
                                                               request.


9
    Personally Identifiable Information line items are identical on both Forms 4506 and 4506-T.
                                                                                                        Page 7
                         Taxpayer Information Is at Risk When Copies of Tax
                               Returns and Transcripts Are Ordered



Employees were processing requests even though the address provided on the Form 4506 or
4506-T was not the address of record.
Eighteen of the 120 sampled requests were processed without the employee having information
to authenticate the taxpayers’ correct address of record. Guidelines state that the employee
should research the taxpayer’s address on the IDRS to confirm it matches the current address on
the Form. If it does not match and the taxpayer has provided the previous address shown on the
last return filed, the employee should then confirm it matches the IDRS. If neither address can
be verified, the employee is to contact the taxpayer for additional identification. If the taxpayer
cannot be reached, the employee should reject the request.
Guidelines continue by stating that if the current address or the address shown on the last return
matches the IRS address of record, and the remainder of the request is complete, continue to
process the request. If the current address or the address shown on the last return is not the
address of record and there is a discrepancy between the name and Social Security Number, then
reject the request.
However, from discussions with employees, we found that they are mailing copies of tax returns
and transcripts to the address that the taxpayer specifies on the Forms 4506 and 4506-T, even if it
is not the address in the IRS systems and the taxpayer did not provide the previous address
shown on the last tax return filed. There was no documentation in the case histories to indicate
that the employee contacted the taxpayer to confirm the correct address. Employees explained
that if two of the three required items (name, Social Security Number, and/or address) are
correct, they process the requests for copies of a tax return or transcript. Employees stated that
taxpayers move and do not always put in a change of address.
When taxpayers call the IRS toll-free telephone number for account information or to order a
transcript, they must provide the correct name and Social Security Number before phone
assistors continue with authentication.
Additional telephone authentication probes include the taxpayer’s current address of record,
filing status, and date of birth. If still in doubt of the taxpayer’s identity, telephone assistors can
request additional taxpayer authentication probes of items from the taxpayer’s tax return or
account that are verifiable on the IDRS.
The Forms and guidelines should be updated and clarified to reduce the risk of unauthorized
disclosures. At a minimum, a taxpayer’s name and Social Security Number should be complete
and accurate on the Forms 4506 and 4506-T before requests for copies of tax returns and
transcripts are processed. Other Personally Identifiable Information items are needed to
authenticate taxpayers when the address is incorrect.




                                                                                                 Page 8
                            Taxpayer Information Is at Risk When Copies of Tax
                                  Returns and Transcripts Are Ordered



One RAIVS unit did not follow guidelines that requires it to use the Transcript Delivery
System automated process to mail transcripts
The Transcript Delivery System has an automated feature that will process requests, including
printing the name and address of the requestor, stuffing the envelope, and applying postage. This
process was developed to reduce manual labor and save resources. Additionally, using the
Transcript Delivery System provides a permanent record of where the transcript was mailed.
One of the five RAIVS units does not use the Transcript Delivery System automated mailing
feature to process the requests. Instead, employees input
taxpayers’ names and addresses into a separate program
that prints mailing labels. The envelopes are then              The Transcript Delivery System
                                                                 has an automated feature that
manually stuffed and routed to the mail room for delivery.      processes requests and saves
This happens because the RAIVS unit chooses to                            resources.
complete quality reviews of requests prior to their being
mailed to taxpayers. When the automated feature is used, quality reviews can only be completed
after the request has been mailed. The other four RAIVS units complete the quality reviews after
the requests are mailed. It is less expensive for the IRS when employees use the Transcript
Delivery System’s automated mailing feature.
Using the Transcript Delivery System also reduces the risk of human error and saves the time
required to process each request. We estimate that the inefficient use of resources for the actual
3-year period (Fiscal Years 2007 through 2009) was equal to 7 Full-Time Equivalents. 10 The
projected 2-year (Fiscal Years 2010 and 2011) productivity gain from using the automated
process would equal 4.6 Full-Time Equivalents or approximately $382,290 for the combined
5-year period by eliminating employees manually stuffing envelopes and mailing transcripts.
RAIVS unit employees are not required to research taxpayer accounts for identity theft
indicators before processing requests
When the IRS determines a taxpayer has been a victim of identify theft, it places an indicator on
the taxpayer’s account. During Calendar Year 2008, the IRS placed a total of 69,803 identity
theft indicators on the accounts of 57,459 taxpayers. For 9,291 of these taxpayers, requests were
made for 35,853 copies of tax returns or transcripts. 11
RAIVS unit guidelines do not have procedures requiring employees to research the IRS
computer system for identity theft indicators nor do the procedures provide instructions on what
should be done if the taxpayer is a victim of identity theft. For example, before a request for a


10
   A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,080 staff
hours. For Fiscal Year 2008, 1 Full-Time Equivalent was equal to 2,088 staff hours due to leap year.
11
   This total includes all Transcript Delivery System users, i.e., IRS employees from various units and tax
practitioners, because data were not readily available to identify only RAIVS unit employees.
                                                                                                             Page 9
                             Taxpayer Information Is at Risk When Copies of Tax
                                   Returns and Transcripts Are Ordered



We obtained a copy of the Transcript Delivery System electronic files for Calendar Years 2006
through 2009 13 for data analysis to evaluate whether the electronic data files are complete,
accurate, and contain adequate data to monitor transactions processed through the Transcript
Delivery System and to help identify potential integrity patterns. We will complete this data
analysis separately and will refer any integrity issues if any are identified.

Transcripts are mailed with taxpayers’ Social Security Numbers
A transcript or a copy of a tax return includes at least four items of Personally Identifiable
Information—name, address, Social Security Number, and tax income information. If transcripts
were inadvertently delivered to the wrong address or stolen, someone would have all the
information needed to steal the identity and file a fraudulent amended return.
In May 2007 the Office of Management and Budget required that all Federal agencies:
•      Develop a plan to eliminate or reduce the unnecessary use of a Social Security Number
       within 4 months of the date of the Memorandum.
•      Take necessary action to eliminate or reduce the unnecessary use of a Social Security
       Number within 18 months of the plan date. 14
In response, the IRS began a Social Security Number Elimination and Reduction strategy. To
date, 470 management information
systems, 155 notices, and 6,000 forms have
                                                Forms 4506 and 4506-T are to be included
been reviewed to identify opportunities to        in a review of documents to identify the
eliminate or reduce Social Security Number     unnecessary use of Social Security Numbers,
use and Servicewide reliance on Social         but the elimination of them on these Forms is
Security Numbers as a primary identifier.                    years in the future.

The IRS identified the Transcript Delivery
System and 997 forms that will require a
detailed review to identify the use of a Social Security Number and if that use should be
considered for Social Security Number elimination or reduction. The Forms 4506 and 4506-T
are to be included as part of this review. The elimination of the Social Security Number on these
Forms is years in the future. Until redacted, the risk of unauthorized disclosure of taxpayer
information will remain high for these documents.

Management Actions
During the course of the audit, we recommended changes to procedures and the IRS agreed. The
IRS took steps to revise guidelines to require that employees confirm receipt of IVES requests by

13
     Through June 9, 2009.
14
     OMB M-07-16.
                                                                                               Page 11
                       Taxpayer Information Is at Risk When Copies of Tax
                             Returns and Transcripts Are Ordered



verifying batch numbers instead of using a list of taxpayers. This process should eliminate the
need to include taxpayer name and Social Security Number in the confirmation fax.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Clarify guidelines to ensure an accurate name and Social Security
Number be required before Forms 4506 and 4506-T can be processed.
       Management’s Response: The IRS agreed with this recommendation. The Internal
       Revenue Manual will be reviewed to examine the clarity of the relevant sections. All
       necessary changes will be made to provide clear guidance on proper research
       requirements to ensure the accuracy of the taxpayers’ names and Social Security
       Numbers.
Recommendation 2: Develop internal controls and provide training to ensure that RAIVS
units: 1) use the Transcript Delivery System’s automated process to mail transcripts, 2) send
copies of tax returns and transcripts only when the Form 4506 and 4506-T shows the address of
record, and 3) properly maintain requests for copies of tax returns and transcripts.
       Management’s Response: The IRS agreed with this recommendation. Submission
       Processing Specialty Branch analysts will conduct site visits to review adherence to
       established RAIVS and IVES units guidelines. During site visits, the analysts will also
       conduct reviews to ensure the units are processing Forms 4506 and 4506-T accurately
       and maintaining required documentation. In addition, training will be provided to
       RAIVS unit management.
Recommendation 3: Develop guidelines to process requests for taxpayers who are victims of
identity theft.
       Management’s Response: The IRS agreed with this recommendation. The Internal
       Revenue Manual will be updated with guidelines to include the following information:
           •   Listing of identify theft indicators and the meaning for each.
           •   Directions on researching taxpayer accounts for identity theft indicators.
           •   Rejection and close-out procedures for requests showing identity theft indicators
               without proper address of record information.




                                                                                            Page 12
                              Taxpayer Information Is at Risk When Copies of Tax
                                    Returns and Transcripts Are Ordered



Charges for Copies of Tax Returns Filed Electronically Should Be
Reduced or Eliminated
The IRS currently charges a user fee of $57 for copies of tax returns, whether the tax returns
were submitted on paper or e-filed. 15 IRS officials stated that the difference in costs between
providing taxpayers a printout of an e-filed tax return and a copy of one submitted on paper is
$0.88. We were not able to validate the IRS’ calculation of this user fee during this audit;
however, we believe the cost to process requests for printouts of e-filed tax returns may be
significantly lower than the cost to process copies of tax returns submitted on paper.
       •   A request for a copy of a tax return submitted on paper must be ordered from a Federal
           Records Center or IRS Submission Processing Center where tax returns are stored. The
           RAIVS unit employee inputs the
           request to the IDRS. It is sent to the
           Center where an employee must                 The IRS currently charges a user fee of
           manually search for the tax return in the    $57 for copies of tax returns, whether the
                                                          tax returns are submitted on paper or
           files, copy it, forward it to the RAIVS                        e-filed.
           unit for mailing, and return it to the
           files.
       •   A request for a printout of an e-filed tax return requires an employee to input the request
           to the IDRS, whereby a copy of the tax return is electronically generated and printed. An
           IRS employee forwards the printout to the RAIVS unit for mailing.
Nevertheless, even if there were a significant difference, IRS officials stated it would not be
feasible to charge one fee for a copy of a paper tax return and a lesser fee or no fee for a printout
of an e-filed tax return. They stated that taxpayers may not remember whether they submitted
their tax returns on paper or electronically and would not know how much money to send to the
IRS. Additionally, if they were incorrect, the IRS would have to refund fees or contact the
taxpayer requesting additional fees.
Office of Management and Budget Circular A-25 provides Federal policy on preparation of cost
estimates for user fees and establishes requirements for documenting that process. Cost
estimates should be based on the best available records and represents the full cost of providing a
service or benefit. Benefits are defined as when a service (or privilege) provides special benefits
to an identifiable recipient beyond those that accrue to the general public. A special benefit, for
example, enables the beneficiary to obtain more immediate or substantial gains or values (which
may or may not be measurable in monetary terms) than those that accrue to the general public or
is performed at the request of or for the convenience of the recipient, and is beyond the services
regularly received by other members of the same industry or group or by the general public.


15
     In November 2008, the IRS increased the cost taxpayers pay for a copy of a tax return from $39 to $57.
                                                                                                              Page 13
                        Taxpayer Information Is at Risk When Copies of Tax
                              Returns and Transcripts Are Ordered



The IRS does not charge taxpayers for printouts of transcripts. It states that this is to encourage
taxpayers to order transcripts rather than copies of tax returns since processing transcripts is less
labor intensive. We believe the cost of providing printouts of e-filed tax returns is comparable to
providing printouts of transcripts. We estimate that taxpayer burden can be reduced for
83,910 taxpayers for a 5-year period by reducing or eliminating the requirement for taxpayers to
pay a $57 fee for a copy of an e-filed tax return.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should reduce or
eliminate the user fee for e-filed tax returns to clearly reflect the cost of providing a printout of
e-filed tax returns.
        Management’s Response: The IRS disagreed with this recommendation. The IRS
        provided an analysis of the costs associated with the processing of requests for copies of
        tax returns. As pointed out in our report, the IRS analysis found that the difference in
        costs between providing taxpayers a printout of an e-filed tax return and a copy of one
        submitted on paper was minimal. In addition, the IRS estimates that the administrative
        cost to implement and administer different fees for copies of paper and e-filed returns
        would offset any minor reduction in the fee for copies of e-filed returns, thus potentially
        resulting in a higher user fee for all taxpayers. As the IRS begins the bi-annual
        requirement to conduct User Fee costing analysis for Fiscal Year 2010, it will perform a
        separate analysis for both paper and e-filed returns to validate their current assumptions.
        Office of Audit Comment: We believe that the cost to process requests for a printout
        of an e-filed tax return is significantly lower than the cost to process copies of tax returns
        submitted on paper. The cost of providing printouts of e-filed tax returns is comparable
        to providing printouts of transcripts, which are free.

Increased Taxpayer Awareness of the Automated System to Order
Transcripts Would Reduce Taxpayer Burden and Internal Revenue
Service Costs
The costs associated with processing requests for transcripts using the IRS’ toll-free telephone
automated system, called the Integrated Customer Communications Environment (ICCE), are
significantly lower than the cost to process a Form 4506-T submitted on paper in the RAIVS
unit. Furthermore, taxpayers generally receive their transcripts quicker.
For Calendar Years 2006 through 2008, the RAIVS units processed approximately 17.8 million
requests for transcripts, compared to approximately 1.4 million requested by taxpayers using the
ICCE. The ICCE is an automated self-help system that allows taxpayers to use the telephone
key pad to enter the following information and order transcripts: 1) Social Security Number,

                                                                                                Page 14
                         Taxpayer Information Is at Risk When Copies of Tax
                               Returns and Transcripts Are Ordered



2) numbers in street address, and 3) the tax year requested. If correctly entered, the transcript
request will be accepted for processing and transcripts will be mailed to the taxpayer generally
within 10 to 15 days. A test of the ICCE resulted in an auditor receiving a transcript within
3 days.
IRS.gov and the Form 4506-T advise taxpayers that they can obtain a transcript by calling
(800) 829-1040. It is not clear that this is an automated system—that taxpayers do not have to
speak with an assistor. Additionally, taxpayers may be confused by the telephone instructions
and instead choose to speak to an assistor.
The instructions on the following page provide what taxpayers hear and the actions they must
take when calling the 1040 telephone number to request a transcript.
   Call Begins.
   •   Welcome to the Internal Revenue Service. Your call may be monitored or recorded for
       quality purposes. (This is repeated in Spanish.)
   •   For any information about the new economic stimulus, press 7.
   •   For questions about preparing or filing your individual tax return or tax related rules and
       regulations, press 1.
   •   For questions about your refund, payment, or account, or to get your prior year AGI or PIN to
       file electronically, press 2.
   •   Taxpayer presses 2.
   •   For questions about your refund, press 1.
   •   For questions about your tax account, press 2.
   •   Taxpayer presses 2.
   •   To access your account information, please enter the Social Security Number or the
       Employer Identification Number that you are calling about.
   •   Taxpayer enters Social Security Number.
   •   If you entered a Social Security Number, Press 1 now.
   •   Recording repeats Social Security Number.
   •   If Social Security Number is correct, press 1.
   •   Please listen to the following 7 topics and choose the one that best fits your needs:
       1. If you have a notice or letter or bill, and would like to set up a payment plan, press 1.
       2. Amount needed to pay your account in full, press 2.
       3. To request a transcript or photocopy of your tax return or transcript of your account,
           press 3.
   •   Taxpayer presses 3.
   •   Verify your address by entering the numbers in your street address; do not enter any letters
       or fractions.
   •   You may order up to 10 transcripts during this call. Tax Return transcripts include most lines
       from your original tax return and do not include any adjustments after the filing of the return.
       There are no fees for a transcript, and most financial institutions will accept the tax transcripts

                                                                                                      Page 15
                         Taxpayer Information Is at Risk When Copies of Tax
                               Returns and Transcripts Are Ordered



       as verification of income. Your transcript will arrive within 10 to 15 days.
   •   If you do not think this information will meet your needs, you may request a photocopy of your
       tax return. There is a charge of $57.00. It will take up to 60 days to receive the photocopy.
       To request a copy of your tax return, complete and submit Form 4506 along with the fee for
       each year that you order.
   •   To order a copy of your tax transcript, press 1.
   • Enter the tax year that you are requesting.
   The call ends.

Taxpayer requests processed through the ICCE will only be mailed to the taxpayer’s address of
record and cannot be mailed to a third party. If any automated question is incorrectly answered,
the taxpayer is automatically routed to a telephone assistor, who will ask additional probing
questions to authenticate the taxpayer before processing the request.
Increased use of this automated option would reduce the volume of Forms 4506-T manually
processed in the RAIVS units. One of the IRS’ planned 2009 – 2013 strategic objectives is to
seek innovative ways to simplify or eliminate processes that unnecessarily burden taxpayers or
resources. This is especially important because the new legislation is expected to increase the
demand for transcripts. Using current statistics, if just 20 percent of the taxpayers who order
transcripts using Form 4506-T were to switch to using the ICCE, the projected labor cost savings
the IRS could realize total $30,683,165 over a 5-year period. Taxpayers would also obtain their
transcripts faster, with less effort and risk of unauthorized disclosure or identity theft.
However, the IRS needs to make taxpayers aware of the ICCE so they will know to use this
self-assistance service rather that making a request using the Form 4506-T. The IRS also needs
to make the ICCE easier to use so that when taxpayers call the 1040 line, they do not get
confused and decide to hang up or choose to talk to an assistor. It should also monitor ICCE
activity to determine if/when a separate dedicated phone line would be feasible to allow
taxpayers to order transcripts without having to use the 1040 line and follow the current script.

Recommendation
Recommendation 5: The Commissioner, Wage and Investment Division, should ensure
IRS.gov is updated to prominently display the option and benefits of ordering a transcript using
the ICCE—that it is a self-assistance option that will allow the taxpayer to receive the transcript
faster. Forms 4506-T should also be similarly updated during the next scheduled revision.
       Management’s Response: The IRS agreed with this recommendation. The
       Accounts Management function will review the current verbiage regarding transcripts on
       IRS.gov and more prominently display the option and benefits of ordering a transcript
       through the IRS Toll Free telephone number using the automated self-assistance
       application. Form 4506-T will also be similarly updated during the next scheduled
       revision.
                                                                                                 Page 16
                Taxpayer Information Is at Risk When Copies of Tax
                      Returns and Transcripts Are Ordered



While the IRS agreed to prominently display the option and benefits of ordering a
transcript using the ICCE, it did not agree to the outcome measure associated with this
recommendation. IRS management stated they were unaware of the basis for our
estimate of 20 percent of Form 4506-T users likely to use the ICCE. In addition, the
availability of another channel to request transcripts will not necessarily result in a
change in taxpayer behavior to such an extent.
Office of Audit Comment: The IRS did not offer a better estimate for the 20 percent
we estimated. Further, IRS studies suggest a significant opportunity to enhance
stakeholder value by migrating willing taxpayers to the more convenient, cost-effective
electronic channel. In recent years, the volume of self-assisted taxpayer contacts has
increased, while assisted contacts have decreased. Research also suggests that many
taxpayers would be willing and able to obtain certain services they need from the Internet
or automated telephone channels. Most taxpayers prefer contacts with the IRS be by
telephone.




                                                                                   Page 17
                            Taxpayer Information Is at Risk When Copies of Tax
                                  Returns and Transcripts Are Ordered



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether controls over requests for copies
of tax returns and transcripts (Forms 4506 and 4506-T) are sufficient to reduce the risk of
identity theft and/or unauthorized disclosure of taxpayer information.
I.       Reviewed the 2007 National Taxpayer Advocate report to determine if the IRS had taken
         corrective actions to address concerns that current controls do not prevent the IRS from
         releasing tax return information to third parties after the taxpayer authorization to release
         information has expired.
II.      To determine whether IRS policies and controls for processing and maintaining taxpayer
         requests for copies of tax returns and transcripts were sufficient, we:
         A. Evaluated the internal control environment and identified risks related to responding
            to taxpayers’ requests for tax return information.
         B. Reviewed the quality review process and determined how RAIVS units evaluate
            performance against existing balanced measures.
         C. Identified Transcript Delivery System procedures and controls for processing
            taxpayers’ requests for tax return transcripts.
         D. Identified and evaluated IVES procedures and controls for processing taxpayers’
            requests for tax return transcripts.
         E. Reviewed the user fee policy to evaluate the cost/benefit that requires taxpayers to
            pay a user fee for printouts of e-filed tax returns.
III.     To evaluate whether employees adhered to authentication guidelines, we reviewed closed
         taxpayer requests:
         A. Selected and reviewed a judgmental sample of 120 requests from 3 of the 7 RAIVS
            units. 1 The offices were selected in order to evaluate the internal control environment
            in three geographic regions of the country (i.e., northeast, southeast, and west). We
            chose a judgmental sample because we were not going to project our results. The


1
  At the beginning of Fiscal Year 2009, five RAIVS units that process requests for individual taxpayers who file a
U.S. Individual Income Tax Return (Form 1040) were located in the Andover, Atlanta, Austin, Fresno, and Kansas
City Submission Processing Centers. We did not conduct testing at two other RAIVS units, in the Ogden and
Cincinnati Submission Processing Centers, because they only process transcripts of business, partnership, estate, and
trust returns.
                                                                                                            Page 18
                     Taxpayer Information Is at Risk When Copies of Tax
                           Returns and Transcripts Are Ordered



         sampled requests were pulled from the requests stored at each center at the time of
         our visits. The total population of requests was unknown.
      B. Selected and reviewed a random sample of 75 taxpayers where a RAIVS unit
         employee accessed the account and used the IDRS to authorize the release of
         taxpayer information. We chose a random sample of this size because we did not
         intend to project our results. From a population of 2,420 Fiscal Year 2009 accounts
         from the IDRS audit trail, we selected 30 taxpayer requests for transcripts. From a
         population of 46,037 Fiscal Year 2009 accounts from the IDRS audit trail, we
         selected 45 taxpayer requests for copies of tax returns.
      C. Validated the data extracted to fill our electronic data processing requests. We
         conducted run-to-run balancing and ensured that the entire file was used with no gaps
         in the access or extraction of the data.
IV.   To test whether employees are preventing improper disclosure and appropriately
      processing requests for tax returns and transcripts, we submitted anonymous requests for
      transcripts based on pre-developed auditor scenarios to all Submission Processing
      Centers.




                                                                                        Page 19
                      Taxpayer Information Is at Risk When Copies of Tax
                            Returns and Transcripts Are Ordered



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Wilma Figueroa, Lead Auditor
Tanya Adams, Senior Auditor
Kenneth Carlson, Senior Auditor
Sharon Shepherd, Senior Auditor
Andrea Hayes, Auditor
Geraldine Vaughn, Auditor




                                                                                     Page 20
                    Taxpayer Information Is at Risk When Copies of Tax
                          Returns and Transcripts Are Ordered



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                Page 21
                            Taxpayer Information Is at Risk When Copies of Tax
                                  Returns and Transcripts Are Ordered



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $382,290 (see page 4). The outcome includes
    actual inefficient use of resources equal to 7 Full-Time Equivalents1 for Fiscal Years 2007
    through 2009. It also includes projected increased productivity equal to 4.6 Full-Time
    Equivalents for Fiscal Years 2010 and 2011 by eliminating employees’ manual labor costs to
    stuff envelopes and mail transcripts.

Methodology Used to Measure the Reported Benefit:
Our test results showed one of five RAIVS units does not use the Transcript Delivery System’s
automated mailing feature to process taxpayer requests for printouts of tax return transcripts.
Instead, employees input taxpayers’ names and addresses into a separate system that prints
mailing labels. The envelopes are then manually stuffed and routed to the mail room for
delivery. The following factors were used to calculate potential savings:
    •    Total volume of Forms 4506-T processed by one RAIVS Unit for
         Fiscal Years 2007–2008 = 579,313.
    •    Average yearly volume of Forms 4506-T processed by one RAIVS Unit for individuals 2
         (Form 1040 series and Form W-2) for Fiscal Years 2007 and 2008 = 289,657. 3




1
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,080 staff
hours. For Fiscal Year 2008, 1 Full-Time Equivalent was equal to 2,088 staff hours due to leap year.
2
  At the beginning of Fiscal Year 2009, five RAIVS units that process requests for individual taxpayers who file a
U.S. Individual Income Tax Return (Form 1040) were located in the Andover, Atlanta, Austin, Fresno, and Kansas
City Submission Processing Centers. We did not conduct testing at two other RAIVS units, in the Ogden and
Cincinnati Submission Processing Centers, because they only process transcripts of business, partnership, estate, and
trust returns.
3
  To obtain this average we divided the total volume of Forms 4506-T processed by one RAIVS Unit for Fiscal
Years 2007–2008 by 2 years (579,313 / 2 = 289,657).
                                                                                                            Page 22
                            Taxpayer Information Is at Risk When Copies of Tax
                                  Returns and Transcripts Are Ordered



    •    Estimated average processing time to manually mail each transcript by RAIVS unit
         employees = 1 minute per request. 4
    •    Estimated average salary for RAIVS employees for Fiscal Years 2007 and 2008
         = $32,956. 5
We calculated the IRS could eliminate the inefficient use of resources of 11.6 Full-Time
Equivalents, approximately $382,290, if the RAIVS unit eliminated the practice of employees
manually stuffing and mailing transcripts as follows:
    •    Total hours spent manually mailing transcripts per year:
         289,657 total minutes spent manually mailing transcripts per year / 60 minutes
         = 4,828 total hours per year.
    •    Total Full Time Equivalents spent manually mailing transcripts per year:
         4,828 total hours spent manually mailing transcripts per year / 2,080 Full-Time
         Equivalent hours per year = 2.32 Full-Time Equivalents.
Actual and projected inefficient use of Full-Time Equivalents over 5 years
2.32 Full-Time Equivalents per year x 5 years = 11.6 Full-Time Equivalents.
Projected inefficient labor costs from Full-Time Equivalents over 5 years
11.6 Full-Time Equivalents x $32,956 average salary per Full-Time Equivalent = $382,290.

Type and Value of Outcome Measure:
    •    Taxpayer Burden – Potential; 83,910 taxpayers (see page 13). The outcome includes
         reduced taxpayer burden for Fiscal Years 2010 through 2015 by eliminating or reducing
         the requirement for taxpayers to pay a $57 fee for a copy of an e-filed tax return.

Methodology Used to Measure the Reported Benefit:
Our test results showed the IRS currently charges $57 for copies of tax returns, whether they are
submitted on paper or e-filed. 6 The IRS established this fee disregarding the difference in costs
between generating a copy of a tax return that was submitted on paper versus one submitted


4
  According to one processing center, RAIVS employees process about 26 transcript requests in 1 hour
(60 minutes/26 transcripts = 2.31 minutes, or approximately 151 seconds). From this total we subtracted 91 seconds
of processing time it takes this unit to process a transcript without mailing each transcript (151 – 91 = 60 seconds or
one minute which represents the average processing time to mail transcripts).
5
  To obtain this average, we identified the Fiscal Years 2007 and 2008 yearly salary for the one RAIVS unit that
manually mailed transcripts.
6
  In November 2008, the IRS increased the cost taxpayers pay for a copy of a tax return from $39 to $57.
                                                                                                              Page 23
                           Taxpayer Information Is at Risk When Copies of Tax
                                 Returns and Transcripts Are Ordered



electronically. However, the costs associated with processing printouts of e-filed tax returns are
significantly less than the cost to process tax returns submitted on paper.
We calculated the reduced burden for taxpayers who submit requests for a copy of their tax
returns if the IRS reduces or eliminates the requirement for taxpayers to pay a $57 fee for a copy
of an e-filed tax return. The following factor was used to calculate potential taxpayer burden
reduction:
    •   Average number of taxpayers who submitted a request for a copy of an e-filed tax return:
        50,347 7 taxpayers / 3 years = 16,782.
Projected reduction in taxpayer burden over 5 years
Projected taxpayer burden reduction by eliminating or reducing the requirement for taxpayers to
pay a $57 fee for a copy of an e-filed tax return = 16,782 x 5 = 83,910.

Type and Value of Outcome Measure:
    •   Inefficient Use of Resources – Potential; $30,683,165 (see page 14). The outcome
        includes increased productivity for Fiscal Years 2010 through 2015 by reducing the
        volume of Form 4506-T manually processed by RAIVS unit employees.

Methodology Used to Measure the Reported Benefit:
Our test results showed for Calendar Years 2006 through 2008, the RAIVS units processed
approximately 17.8 million requests for printouts of transcripts, compared to approximately
1.4 million requested by taxpayers using the IRS’ toll-free telephone automated system (ICCE).
Increased use of this automated option would reduce the labor required to manually process the
Forms 4506-T in the RAIVS units. The following factors were used to calculate potential
savings:
    •   Total volume of Forms 4506-T processed by RAIVS units for individuals (Form 1040
        series and Form W-2) (Fiscal Years 2006–2008) = 5,760,281. 8




7
  These data were obtained from auditor’s research of the Individual Return Transaction File. This file is an IRS
database containing personal, tax account, and other information that has been transcribed from tax returns and most
related schedules filed by individual taxpayers.
8
  To obtain this total we deducted from the total volume of Forms 4506-T processed in Fiscal Years 2006–2008
(17,802,568) the total Forms 4506-T processed in Ogden (3,017,297) and Cincinnati (4,709,800), which process
requests for other than individual taxpayers and the total IVES volumes (4,315,190); (17,802,568 – 3,017,297 –
4,709,800 – 4,315,190 = 5,760,281).
                                                                                                           Page 24
                            Taxpayer Information Is at Risk When Copies of Tax
                                  Returns and Transcripts Are Ordered



    •    Average yearly volume of Forms 4506-T processed by RAIVS units for individuals
         (Form 1040 series and W-2) for Fiscal Years 2006–2008 = 1,920,094. 9
    •    Estimated percentage (20 percent) of Form 4506-T individual users likely to use the
         ICCE = 384,019. 10
    •    Estimated labor cost to process each Form 4506-T in the Transcript Delivery System by
         RAIVS unit employees = $25.48 per request. 11
    •    Estimated percentage (50 percent) of taxpayers likely to use the ICCE but who also may
         choose to speak to a Toll-Free Customer Service Representative = 192,009. 12
We calculated the inefficient use of resources (i.e., labor costs) the IRS could realize if
20 percent of taxpayers who order transcripts using Form 4506-T were to switch to ordering
them using the ICCE to be approximately $30,683,165 as follows:
    •    Total labor costs required to process 20 percent of Form 4506-T requests per year:
         384,019 x $25.48 = 9,784,804.
    •    Estimated costs to answer taxpayer calls to a Toll-Free Customer Service Representative
         after using the ICCE: 192,009 x $19 cost per call 13 = 3,648,171.
    •    Total net estimated labor cost savings from increased taxpayer use of the ICCE:
         9,784,804 labor cost to process 20 percent of requests via Form 4506-T – 3,648,171 labor
         costs from Toll-Free calls = $6,136,633.
Projected inefficient use of resources over 5 years (Fiscal Years 2010 through 2015)
$6,136,633 labor cost savings per year x 5 years = $30,683,165.




9
  To obtain this average we divided the total volume of Forms 4506-T processed by RAIVS units for individuals
(Form 1040 series and Form W-2) for Fiscal Years 2006–2008 by 3 years (5,760,281 / 3 = 1,920,094).
10
   1,920,094 x .20 = 384,019.
11
   According to calculations based on IRS documents, the labor costs to process a Form 4506-T is approximately
$25.48. We calculated this cost by taking the cost to process a Form 4506 ($30.32, which excluded the costs to
print, and stuff and mail envelopes) and subtracting the cost to research and photocopy a tax return ($4.84) = $25.48.
12
   384,019 x .50 = 192,009.
13
   The 2007 Taxpayer Assistance Blueprint, Phase 2, IRS, Publication 4579, April 2007.
                                                                                                             Page 25
       Taxpayer Information Is at Risk When Copies of Tax
             Returns and Transcripts Are Ordered



                                                   Appendix V

Management’s Response to the Draft Report




                                                            Page 26
Taxpayer Information Is at Risk When Copies of Tax
      Returns and Transcripts Are Ordered




                                                     Page 27
Taxpayer Information Is at Risk When Copies of Tax
      Returns and Transcripts Are Ordered




                                                     Page 28
Taxpayer Information Is at Risk When Copies of Tax
      Returns and Transcripts Are Ordered




                                                     Page 29
Taxpayer Information Is at Risk When Copies of Tax
      Returns and Transcripts Are Ordered




                                                     Page 30
